Audit of USAID's Efforts to Meet the
Requirements of the Government Performance
and Results Act of 1993
Audit Report Number 9-000-03-011-P

September 30, 2003




                     Washington, D.C.
September 30, 2003


MEMORANDUM

FOR:          DAA/PPC Director, Jon H. Breslar

FROM:         IG/A/PA Director, Nathan S. Lokos /s/

SUBJECT:      Audit of USAID’s Efforts to Meet the Requirements of the Government
              Performance and Results Act of 1993 (Report No. 9-000-03-011-P)


This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have included your response as Appendix II.

The report contains two recommendations to improve USAID’s performance-reporting system.
In your written comments, you concurred with the recommendations and identified planned
actions to address our concerns. Consequently, we considered each of the recommendations to
have received a management decision. Information related to your final action on the
recommendations should be provided to USAID’s Office of Management Planning and
Innovation.

I want to express my sincere appreciation for the cooperation and courtesies extended to my
staff during the audit.
(This page intentionally left blank.)




                                        2
Table of
Contents
           Summary of Results                                   5

           Background                                            5

           Audit Objective                                       6

           Audit Findings:

                  Is USAID implementing the
                  requirements of the Results Act?               7

                         USAID’s Performance-Reporting System
                         Needs Improvement                      10

           Management Comments and Our Evaluation               13

           Appendix I - Scope and Methodology                   15

           Appendix II - Management Comments                    17




                                                                     3
(This page intentionally left blank.)




                                        4
Summary of   In the 1990s, Congress and the executive branch laid out a statutory and
Results      management framework providing the foundation for strengthening
             government performance and accountability, with the Government
             Performance and Results Act of 1993 (Results Act) as its centerpiece. (See
             page 5.) The Office of Inspector General's Performance Audits Division
             conducted this audit to determine the status of USAID’s efforts in
             implementing the Results Act. (See page 6.)

             USAID is implementing the requirements of the Results Act except that it
             has struggled with meeting some reporting requirements. For instance,
             USAID did not finalize and issue an annual performance plan for fiscal
             year 2002, did not establish performance targets for the majority of
             indicators in its fiscal year 2003 annual performance plan, and did not
             include results data for fiscal year 2002 performance goals in its fiscal
             year 2002 performance and accountability report. (See page 7.)

             This report includes two recommendations to: (1) improve USAID’s
             performance-reporting system to enable the reporting of current-year results
             for its program activities and (2) incorporate annual output indicators into the
             performance-reporting system. (See page 13.)

             The Bureau for Policy and Program Coordination concurred with the
             recommendations and described planned actions to implement the
             recommendations. Based on their written comments, we consider that a
             management decision has been reached for each recommendation.
             USAID Management’s comments are included in their entirety in
             Appendix II. (See pages 13 and 17.)




Background   In the 1990s, Congress and the executive branch laid out a statutory and
             management framework providing the foundation for strengthening
             government performance and accountability, with the Government
             Performance and Results Act of 1993 (Results Act) as its centerpiece. The
             Results Act was passed to improve Federal program effectiveness,
             Congressional decision-making, and internal management of the Federal
             government by holding Federal agencies accountable for achieving
             program results. The Results Act requires that Federal agencies:

             •      Develop strategic plans every three years covering a period of at
                    least five years forward from the year of submission.




                                                                                                5
                  •      Prepare annual performance plans, which include performance
                         indicators to measure relevant outputs, service levels, or outcomes
                         and provide a basis for comparison to actual program results.

                  •      Report annually in a performance report on actual performance
                         compared to planned performance for the fiscal year covered by
                         the report.

                  The strategic plans provide the framework for implementing all other parts
                  of the Results Act and set out a course of action and accomplishment over
                  the long term. Complementing the strategic plans are annual performance
                  plans that set annual goals with measurable target levels of performance
                  and annual program performance reports that compare actual performance
                  to the annual goals. Together, these should define a course to improve the
                  performance of government programs and operations, as well as provide a
                  basis for the Federal Government to manage for results.

                  Office of Management and Budget Circular No. A-11, Part 6, "Preparation
                  and Submission of Strategic Plans, Annual Performance Plans, and Annual
                  Program Performance Reports," (June 2002) provided instructions to
                  agencies on how to prepare those required Results Act documents. USAID
                  has designated the Bureau for Policy and Program Coordination with the
                  responsibility for ensuring the preparation of those documents for the
                  Agency and for leading Agency efforts in managing for results.

                  The Reports Consolidation Act of 2000 made several amendments to the
                  Results Act, including allowing agencies that prepare accountability
                  reports (which contain financial information) to combine this report with
                  their program performance report. The Office of Management and Budget
                  directed the 24 departments and agencies subject to the Chief Financial
                  Officers Act (of which USAID is one) to prepare a combined performance
                  and accountability report, and to submit the fiscal year 2002 report by
                  February 1, 2003.



Audit Objective   The Office of Inspector General's Performance Audits Division conducted
                  this audit to answer the following audit objective:

                  Is USAID implementing the requirements of the Results Act?

                  The audit of USAID’s efforts to meet the Results Act was conducted as part
                  of the Office of Inspector General’s annual audit plan and multi-year
                  strategy. Appendix I contains a discussion of the scope and methodology
                  used for this audit.



                                                                                               6
Audit Findings
                 Is USAID implementing the requirements of the Results Act?

                 USAID is implementing the requirements of the Results Act except that it
                 has struggled with meeting some reporting requirements. For instance,
                 USAID did not finalize and issue an annual performance plan for fiscal year
                 2002, did not establish performance targets for the majority of indicators in
                 its fiscal year 2003 annual performance plan, and did not include results data
                 for fiscal year 2002 performance goals in its fiscal year 2002 performance
                 and accountability report. The status of each individual Results Act
                 document, as well as our comments on needed improvements to the
                 performance-reporting system, are shown below.


                 Strategic Plan

                 The Results Act and the Office of Management and Budget Circular No. A-
                 11 indicate that, within three years of the date of transmittal of the previous
                 updated and revised strategic plan to Congress, a new plan should be sent to
                 Congress and the Office of Management and Budget. USAID intends to
                 comply with this deadline by submitting a plan prior to the end of fiscal year
                 20031. To do so, USAID is working on an updated and revised strategic
                 plan in conjunction with the State Department. This plan, covering the fiscal
                 years from 2004 to 2009, will address policy and management issues.

                 The joint State-USAID strategic plan is integrated with the U.S. "National
                 Security Strategy." Its goals, objectives, and targets guide the Agency in
                 planning and prioritizing programs and in delivering developmental and
                 humanitarian results. The joint strategic plan will be used by both State and
                 USAID to commit to clear and focused performance goals, and improved
                 State-USAID coordination. The strategic plan and the accompanying annual
                 performance plan lay the framework for the development of performance
                 measures and targets against which the Agency's performance will be
                 measured and reported.

                 The joint strategic plan lays out four strategic objectives that USAID and the
                 State Department will strive to achieve:

                 1. Protect the nation;

                 2. Advance sustainable development and global interests;
                 1
                   In an email dated September 26, 2003, the Bureau for Policy and Program Coordination
                 stated that the strategic plan was officially launched by Secretary of State Colin Powell
                 last week and is now posted to the USAID website.



                                                                                                             7
3. Promote international understanding; and

4. Strengthen diplomatic and program capabilities.

Within these objectives, the parties will focus their work around 12 strategic
goals. Their annual performance plans will flow from these goals and policy
direction, and will discuss their programs and activities focused on shorter-
term performance targets.


Annual Performance Plan

Although the September 2000 Agency strategic plan is still the basic
framework under which USAID operates, it does not completely reflect
changes in Administration priorities—particularly in the aftermath of
September 11, 2001. As a result, the annual performance plan (APP) for
fiscal year 2003 was adjusted to better reflect emerging new directions and
changes in practices, such as the new President’s Management Agenda. This
APP was finalized and issued in August 2002. However, the APP for the
previous year, fiscal year 2002, was never finalized and issued. Instead, a
note on the cover page of the fiscal year 2003 plan stated, “This plan will
also be applied to FY 2002.”

This APP organizes USAID’s activities into four “pillar” areas, one of
which, the Global Development Alliance, is its new business model and
applies to all of USAID’s programs. The other three program pillars consist
of Economic Growth, Agriculture, and Trade; Global Health; and
Democracy, Conflict, and Humanitarian Assistance.

Underlying the pillars is a series of objectives, context indicators2, and
performance indicators. A separate section on Management contains
objectives, goals, and indicators. For the 36 performance indicators3 listed in
the pillar areas, one performance target was explicitly established for fiscal
year 2002 and 16 targets applied to fiscal year 2003, while 19 indicators had
no targets. However, in the Management section, for the 11 indicators, 10


2
  Context indicators monitor development trends over time (e.g., Economic Freedom
scores provide a good indicator of a country’s overall business climate). USAID does not
directly affect context indicators but is one of many stakeholders that influence outcomes.
Therefore, USAID does not set targets for these indicators.
3
  USAID guidance defines a performance indicator as having a particular characteristic or
dimension used to observe progress and to measure actual results compared to expected
results. Each indicator should have a performance target, which is a specific, planned
level of result to be achieved within an explicit timeframe.



                                                                                              8
contained targets for both fiscal years 2002 and 2003, while 1 indicator had a
target for only fiscal year 2002.

The draft APP for fiscal year 2004 incorporates the initial development of
the joint State-USAID strategic plan that will run from 2004 to 2009. It
also complements the fiscal year 2004 USAID budget submission by
linking expected results with requested financial resources. Although the
draft fiscal year 2004 APP should have been finalized and submitted to
Congress by March 2003, it has not yet been finalized and USAID now
expects to submit the APP in September 20034. In addition, USAID has
further refined the indicators and now has targets for a majority of them.
For the 28 indicators listed in the pillar areas, 18 had targets applicable to
fiscal year 2004, and the other 10 lacked targets. Furthermore, 15 of the
16 indicators in the Management section contained targets for fiscal year
2004. As USAID continues to work on this draft APP, additional targets
will be added. We do not believe that formal recommendations are
merited regarding the annual performance plan as USAID is currently
preparing APPs for future years and working towards adding targets for all
indicators.


Annual Performance Report

The annual performance report was incorporated into USAID’s performance
and accountability report (PAR) for fiscal year 2002. It is essentially
organized in the same format as the annual performance plan for fiscal years
2002 and 2003. For the most part, it only provides results data for fiscal year
2001 or earlier although USAID’s Management Goal section does provide
current data for fiscal year 2002.

The Association for Government Accountants (Association) reviewed5 the
fiscal year 2002 PAR submitted by USAID under their Certificate of
Excellence in Accountability Reporting Program. The Association noted
that USAID’s PAR continues to improve and commended USAID for their
active engagement in the program over the past five years. The Association
also provided a list of suggestions that would make for a more reader-
friendly and informative report. Regarding performance reporting, the
Association emphasized that more of the performance data needed to be for

4
  In an email dated September 26, 2003, the Bureau for Policy and Program Coordination
stated that the APP was being submitted to the Office of Management and Budget on
September 26.
5
 Each review team consists of five independent professionals: the Program Technical
Director and senior staff volunteered from offices of financial management, inspectors
general, independent public accountants, and performance measurement.



                                                                                         9
the current year, even if that data were presented as preliminary or estimated.
They further noted that a PAR should present the targets for the latest year
for which actual results are presented, the targets for the year it is reporting
on, and actual performance information for the same year—even if the latter
needs to be marked unavailable, incomplete, or preliminary.

Researchers from the Mercatus Center at George Mason University
conducted their fourth annual evaluation of the annual performance reports
produced by the 24 agencies covered under the Chief Financial Officers’
Act. Their assessments looked at the quality of the agencies’ reports but not
at the quality of results achieved. The research team utilized 12 evaluation
factors grouped under three general categories of transparency, public
benefits, and leadership. The USAID report did not score well in their
ratings (23rd out of 24) as they generally considered it to be difficult to
follow and unclear. Regarding performance reporting, they noted that the
performance data were not always timely. Furthermore, they noted that the
base year, the number of years of baseline trend data, and the completeness
of the years provided varied widely throughout the report.

In addition to the discussion of the three essential Results Act documents
presented above, our comments on USAID’s efforts and needed
improvements to the performance-reporting system are noted below.


USAID’s Performance-Reporting
System Needs Improvement

Contrary to Results Act requirements, USAID's annual performance report
for fiscal year 2002—which was incorporated into the performance and
accountability report (PAR)—generally did not report fiscal year 2002
results. This occurred because USAID's guidance did not request
submission of results data from its operating units in time to meet the
reporting requirements of the Results Act. As a result, Congress and
interested stakeholders would have difficulty in judging USAID's most
recent program performance in order to make informed budgeting and
managerial decisions. The following paragraphs discuss this issue in
detail.

The Results Act states that each program performance report shall set
forth the performance indicators established in the agency performance
plan, along with the actual program performance achieved compared with
the performance goals expressed in the plan for that fiscal year.
According to Office of Management and Budget Circular No. A-11
guidance, the purpose of an annual performance report is to provide
information on an agency’s actual performance and the progress made



                                                                                   10
towards achieving its goals and objectives in its strategic plan and annual
performance plan. Office of Management and Budget Bulletin No. 01-09
required the 14 Cabinet Departments and 10 independent agencies (of
which USAID is one) to combine the program performance report with the
accountability report and to transmit a combined fiscal year 2002
performance and accountability report to the President, Congress, and
Office of Management and Budget not later than February 1, 2003.

Circular No. A-11 states that actual performance is to be reported as it
occurred during the fiscal year covered by the report. Further, it states that
the annual performance report should identify those performance goals
where actual performance information is missing, incomplete, or
preliminary, and indicate the approximate date the information will be
available. In addition, actual performance information, once available,
should be included in the subsequent annual performance report. On the
other hand, Circular No. A-11 does not support the development of a
performance-reporting system that encourages the use of old data for all
performance reporting. For instance, the recently issued Circular No. A-
11 for fiscal year 2003 states that the timetable for preparing an annual
performance report may result in some performance data not having been
collected or analyzed when the report is completed.

USAID's PAR did not report any fiscal year 2002 results for its
performance goals as required. Instead, the PAR generally reported fiscal
year 2001 results. For instance, there were 23 performance indicators
included in the three program pillar areas, none of which reported results
for 20026. Earlier in this audit report, in the section on the Annual
Performance Report, external reviewers also noted this problem with the
timeliness of performance results.

As reported by the Office of Inspector General, this use of prior-year data
has been a continuing problem for USAID7. Although part of the cause
has been the difficulty of gathering current data for developing countries
in a timely manner, the timing of USAID's internal reporting system
further exacerbates the problem. USAID's operating units prepare an
internal document called the Annual Report, which includes information
on program performance. These Annual Reports serve as the source
6
  In addition to these 23 indicators, there was a table labeled “Estimated Averted
Infections and 2 Key Preventive Services in USAID Intensive Focus and Expanded
Response Countries, 2001,” which contained three measures referred to as “Indicators.”
Another table appeared to be an indicator although it was not labeled as such. Titled as
“Children Enrolled in Primary Schools,” it showed actual results for the year 2001 and
targets for the year 2002.
7
  Report on USAID’s Consolidated Financial Statements, Internal Controls and
Compliance for Fiscal Year 2002 (Audit Report No. 0-000-03-001-C).



                                                                                           11
documents for much of the performance information reported in the PAR.
However, guidance issued by USAID’s Bureau for Policy and Program
Coordination did not require operating units to submit fiscal year 2002
results data until January 6, 2003—less than a month before the PAR
reporting deadline—and several units had still not complied as of July
2003. Therefore, as current results could not be included in the fiscal year
2002 PAR, USAID intends to include these results in the PAR for fiscal
year 2003.

Because USAID reports prior years’ data, Congress and other stakeholders
would have difficulty in judging USAID's current program performance in
order to make informed budgeting and managerial decisions. Furthermore,
the Bureau for Policy and Program Coordination believes that it will be
unlikely that USAID will be able to meet the accelerated deadline of
November 15 for future years based on its existing reporting systems.
However, in an Action Memorandum dated June 12, 2003, the USAID
Administrator approved a series of initiatives to improve mission
effectiveness and cost efficiency. Regarding the issue of performance
reporting and accountability, USAID would like to develop a cost-effective
system for meeting accountability requirements. A more efficient reporting
system should lead to greater timeliness.

We encourage USAID’s planned attempts to streamline its performance-
reporting system. For instance, USAID has about 450 strategic objectives,
as well as a variety of performance indicators. By reducing the number of
these objectives and developing common indicators, USAID can present its
story in a clearer and more cost-efficient manner. USAID officials expect to
pursue these actions over the course of the next year, which could facilitate
the Agency’s collection of more current data for its reports.

Adding further momentum to streamlining is the trend in performance
reporting towards more frequent dissemination of results. For example, the
Office of Management and Budget has issued a draft Circular that calls for
quarterly reporting beginning in fiscal year 2006.

USAID is taking an initial step towards addressing this issue of accelerated
reporting. Beginning in fiscal year 2004, it will start to implement a new
web-based performance information-collection and analysis system known
as the On-line Presidential Initiatives Network. The primary purpose of this
effort will be to initiate a system that provides quarterly information on
achievement of Agency goals. To begin with, it will only be used to track
implementation of Presidential Initiatives, but, if successful, it may become
the basis for more rapid collection, analysis and dissemination of all Agency
performance, financial and human resource allocation information.




                                                                                12
                 Finally, developments in performance budgeting may help to improve the
                 timeliness of performance reporting. The recently issued Circular No. A-11
                 for fiscal year 2003 states that beginning with the budget for fiscal year
                 2005, agencies will prepare a performance budget in lieu of the annual
                 performance plan, although this budget should satisfy all statutory
                 requirements for the annual performance plan. A performance budget
                 consists of a performance-oriented framework, in which strategic goals are
                 paired with related long-term performance goals (outcomes) and annual
                 performance goals (mainly outputs). Target levels of performance are set for
                 the performance goals. By developing more output-oriented goals for the
                 short term and reporting against those goals (as indicated by the latest A-11
                 Circular), we believe that USAID would have a greater likelihood of
                 achieving a system that reports current results.

                 USAID has taken steps to improve its reporting and the quality of its data.
                 However, the Office of Inspector General would like to provide additional
                 impetus to the process of meeting Results Act requirements and intent by
                 making the following recommendations.

                        Recommendation No. 1: We recommend that the USAID
                        Bureau for Policy and Program Coordination improve
                        USAID’s performance-reporting system to enable the
                        reporting of current-year results for its program
                        activities.

                        Recommendation No. 2: We recommend that the USAID
                        Bureau for Policy and Program Coordination
                        incorporate annual output indicators into USAID’s
                        performance-reporting system that will supplement
                        longer-term outcome indicators.



Management       In its response to our draft report, the Bureau for Policy and Program
Comments and     Coordination concurred with our recommendations. To address the first
                 recommendation, the Bureau noted that it is working with field missions and
Our Evaluation   contractors to incorporate current year results data for its program activities into
                 the USAID fiscal year 2003 Performance and Accountability Report.

                 To address the second recommendation, the Bureau noted that it is starting to
                 collect information on a substantial number of output indicators through a new
                 web-based system and expects to report on some of these output indicators in the
                 fiscal year 2003 Performance and Accountability Report.




                                                                                                  13
Based on the actions that the Bureau has planned to address the
recommendations, we concluded that a management decision has been
reached on each recommendation. Information related to your final action
on the recommendations should be provided to USAID’s Office of
Management Planning and Innovation.




                                                                           14
                                                                              Appendix I


Scope and     Scope
Methodology
              The Office of Inspector General’s Performance Audits Division in
              Washington, D.C. conducted an audit of USAID’s efforts to meet the
              requirements of the Results Act. This audit was conducted in accordance
              with generally accepted government auditing standards.

              Audit fieldwork was conducted at USAID offices in Washington, D.C.,
              from July 9 through September 5, 2003. The scope of the audit was
              limited to examining USAID’s efforts to meet the requirements of the
              Results Act by reviewing the various Results Act documents noted in the
              Methodology section. The Office of Inspector General did not assess the
              quality of the performance goals, indicators, or targets, nor did it generally
              perform substantive testing of the performance data.

              Methodology

              In order to gain an understanding of USAID’s efforts to meet the
              requirements of the Results Act, we held discussions with USAID officials
              in several offices such as the Bureau for Policy and Program Coordination
              and the Bureau for Management. In addition, we held discussions with
              various contract officials involved with the performance-reporting system.

              Specifically, to assess management controls, we performed the following:

              •       Reviewed relevant laws, regulations, guidance, and memoranda to
              gain a better understanding of the relevant issues relating to performance-
              reporting systems.

              •      Met with USAID and contractor officials to review the process for
              preparing Results Act documents such as the fiscal year 2002 and 2003
              performance and accountability reports.

              •      Obtained and reviewed the following required Results Act
              documents: the draft joint strategic plan covering the fiscal years 2004-
              2009, the annual performance plan for fiscal years 2002 and 2003, the
              performance and accountability report for fiscal year 2002, and the draft
              annual performance plan for fiscal year 2004.

              •    Obtained and reviewed independent evaluations of aspects of
              USAID’s performance-reporting system.




                                                                                               15
(This page intentionally left blank.)




                                        16
                                                                                       Appendix II


Management
Comments
                                                                    September 22, 2003
MEMORANDUM

TO:            IG/A/PA, Nathan Lokos

FROM:          DAA/PPC, Jon Breslar /s/

SUBJECT:       Audit of USAID Efforts to Meet the Requirements of GPRA

   USAID’s Bureau for Policy and Program Coordination is pleased to provide comments on the
subject audit findings. We accept these findings and we are taking the following actions to address
them:

Recommendation No. 1: “We recommend that the USAID Bureau for Program and Policy
Coordination improve USAID’s performance reporting system to enable the reporting of current
year results for its program activities.”

   Concerning this finding we are working with our field missions and with contractors to improve
our ability to incorporate more current data in our annual performance reporting. We expect to
incorporate more current year results for our program activities in the agency’s FY 03 Management
Discussion and Analysis and Annual Performance Report this year. We will especially focus on
reporting current year results for critical and extensive programs in Iraq and Afghanistan.

Recommendation No. 2: “We recommend that the USAID Bureau for Program and Policy
Coordination incorporate annual output indicators into USAID’s performance reporting system that
will supplement longer-term outcome indicators”.

    Concerning this finding, USAID is beginning to collect information on a substantial number of
output indicators through our On-Line Presidential Initiatives Network (OPIN). This web based
reporting system tracks progress against 12 Presidential Initiatives. Data is collected every quarter
of the current fiscal year, and provides up to date information on programs most critical to the
interests of the Executive and Legislative branches of the government. While this system is still in
the beginning stages of implementation, we expect to report on some OPIN output indicators in our
FY 03 Performance Report.

   We expect we will be able to address these two findings and close this recommendation following
an Inspector General review of the USAID FY 03 Performance and Accountability Report scheduled
in November, 2003.

cc:    M/MPI/MIC, Connie Turner
       M/MPI/MIC, Gloria White


                                                                                                    17
